No. 19-1212
In the

Supreme Court of the United States
CHAD F. WOLF, ACTING SECRETARY OF
HOMELAND SECURITY, et al.,
Petitioners,
v.
INNOVATION LAW LAB, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit
BRIEF OF YOUNG CENTER FOR IMMIGRANT
CHILDREN’S RIGHTS, KIDS IN NEED OF
DEFENSE, CENTER FOR THE HUMAN RIGHTS OF
CHILDREN, ANGRY TIAS AND ABUELAS OF THE
RIO GRANDE VALLEY, CHILDREN’S DEFENSE
FUND, FIRST FOCUS ON CHILDREN, SAVE THE
CHILDREN ACTION NETWORK, AND SAVE THE
CHILDREN FEDERATION, INC. AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
Jane Liu
Jennifer Nagda
Young Center for Immigrant
Children’s Rights
2245 South Michigan Avenue,
Suite 301
Chicago, Illinois 60616

Linda Dakin-Grimm
Counsel of Record
Mark Shinderman
Milbank LLP
2029 Century Park East,
33rd Floor
Los Angeles, California 90067
(424) 386-4000
ldakin-grimm@milbank.com

Counsel for Amici Curiae
(Additional Counsel Listed on Inside Cover)
January 22, 2021
301009

Scott L. Shuchart
Kids in Need of Defense
1201 L Street, NW, Floor 2
Washington, D.C. 20005

Will B. Denker
Gary A. Crosby II
Margherita A. Capolino
Milbank LLP
55 Hudson Yards
New York, New York 10001

i
TABLE OF CONTENTS
Page
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

A S Y LU M - S EEK I NG C H I L DR EN
CA N NO T BE H E A R D W I T HOU T
PRO CEDU R A L S A F EGUA R D S
AND CHILD-SENSITIVE
CONSIDERATIONS . . . . . . . . . . . . . . . . . . . . . . . 7

II. MPP VIOLATES NON-REFOULEMENT
PRINCIPLES BY DEN Y ING
CHILDREN DUE PROCESS . . . . . . . . . . . . . . 11
A. MPP Denies Children Their Right To
Be Heard on Their Fears of Returning
To Danger in Mexico . . . . . . . . . . . . . . . . . . 12
i.

Children in MPP Face Dangerous
and Inhumane Conditions in
Mexico . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii. The MPP Process Returns Children
To Danger and Harm in Mexico . . . . . 15

ii
Table of Contents
Page
a. Jorge—Child Fleeing Violent
Gangs Subjected to MPP With
His Mother Even Though They
Were Kidnapped in Mexico on
Their Way to the Border . . . . . . . . 18
b. Juan—Child Fleeing Violence
W ho Became Ill from the
Conditions in the Camp and
Was Kidnapped for Months  . . . . . 19
B. MPP Denies Children Their Right To
Be Heard on Their Fears of Returning
to Their Countries-of-Origin  . . . . . . . . . . . 20
i.

The Video-Based, Adversarial, and
Non-Private Conditions of MPP
Hearings Prevent Children from
Understanding the Proceedings
and Presenting Their Protection
Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

ii. MPP Fails To Ensure That Children
Are Able To Pursue Independent
Asylum Claims  . . . . . . . . . . . . . . . . . . . 25
a. Er ick—Teenager Fleeing
Physical and Verbal Abuse
Based on His Sexual Orientation
With No Privacy To Describe
Persecution in the Open Tent
Hearing . . . . . . . . . . . . . . . . . . . . . . 26

iii
Table of Contents
Page
b. Ana—Child Fleeing Sexual
A ssault W ho Felt Unsafe
Telling Her Story at Her MPP
Hearing . . . . . . . . . . . . . . . . . . . . . . 27
c.

Alejandra and Rosa—Sisters
Fleeing Gang Threats Forced
To Appear at Hearings With
Their Abusive Father, and
P r e ve nt e d f r om Te l l i n g
Their Stories of Abuse . . . . . . . . . . 28

III. M PP H A S DEVA STATING LONG TERM EFFECTS ON CHILDREN  . . . . . . . . 29
A. Mateo—Child Fleeing Gangs that Killed
His Brothers and Attacked Him Sent
to Mexico Where Gangs Threatened
To Steal Children in the Camp . . . . . . . . . . 31
B. Oscar—Child Fleeing Death Threats
Separated from His Family at the
Border Based on CBP’s Arbitrary
Processing Decision . . . . . . . . . . . . . . . . . . . 33
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

iv
TABLE OF CITED AUTHORITIES
Page
CASES
E.A.C.A. v. Rosen,
No. 20-3216, 2021 WL 97447
(6th Cir. Jan. 12, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . 9
Mejilla-Romero v. Holder,
614 F.3d 572 (1st Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 11
A-D-,
AXXX XXX 526 (BIA May 22, 2017) . . . . . . . . . . . . 11
In re Gault,
387 U.S. 1 (1967), abrogated on other grounds
by Allen v. Illinois, 478 U.S. 364 (1986) . . . . . . . . . . 24
STATUTES, RULES, AND REGULATIONS
8 U.S.C. § 1231(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
8 U.S.C. § 1232  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
8 U.S.C. § 1231  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
8 C.F.R. § 1208.3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
8 C.F.R. § 1208.13 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Foreign A ffairs Reform and Restructuring
Act of 1998, § 2242(a), Pub. L. No. 105-277,
Div. G., Title XXI, 112 Stat. 2681 . . . . . . . . . . . . . . . 12

v
Cited Authorities
Page
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OTHER AUTHORITIES
Alicia A. Caldwell, Tent Court on the Border:
Migrants Face a Judge on a Screen and a Lawyer
They Can’t See, Wall. St. J., Jan. 9, 2020 . . . . . . . . . 22
A mer ic a n Ac a demy of Ped i at r ic s, Early
Childhood Adversity, Toxic Stress, and
the Role of the Pediatrician: Translating
Developmental Science into Lifelong Health,
129 Pediatrics e224 (2012) . . . . . . . . . . . . . . . . . . . . . 31
American Immigration Council, A Guide to
Children Arriving at the Border 8 (2015) . . . . . . . . 23
C h r i s N e w l i n e t a l . , C h i l d Fo r e n s i c
Inter view ing: Best Pra ctices, Juveni le
Justice Bulletin (Office of Juvenile Justice
and Delinquency Prevention, U.S. Dep’t
of Justice, Washington, D.C.), Sept. 2015 . . . . . . . 9, 10
Contrasting Experiences: MPP vs. Non-MPP
Immigration Court Cases, Transactional
Records Access Clearinghouse at Syracuse
Univ. (Dec. 19, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Convention against Torture art. 3, Dec. 10, 1984,
1465 U.N.T.S. 85  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

vi
Cited Authorities
Page
Convent ion on t he R ight s of t he Ch i ld ,
Nov. 20, 1989, 1577 U.N.T.S. 3 . . . . . . . . . . . . . . . . . . . 8
Debbie Nathan, An Asylum Officer Speaks
Out Against the Trump Administration’s
“Super villain” Attacks on Immigrants,
The Intercept, Sept. 13, 2019 . . . . . . . . . . . . . . . . . . .  17
Details on MPP (Remain in Mexico) Deportation
Proceedings, Transactional Records Access
Clearinghouse at Syracuse Univ. (Nov. 2020) . . . . . 24
Ex aminin g th e Hum an Ri gh t s & Le ga l
Implications of DHS’s “Remain in Mexico”
Policy: Hearing Before the Subcomm. on Border
Sec., Facilitation & Operations of the H. Comm.
on Homeland Sec., 116th Cong. 18 (2020)  . . . . . . . . 23
Ex aminin g th e Hum an Ri gh t s & Le ga l
Implications of DHS’s “Remain in Mexico”
Policy: Hearing Before the Subcomm. on Border
Sec., Facilitation & Operations of the H. Comm.
on Homeland Sec., 116th Cong. 100 (2020)  . . . . . . . 16
Ex aminin g th e Hum an Ri gh t s & Le ga l
Implications of DHS’s “Remain in Mexico”
Policy: Hearing Before the Subcomm. on Border
Sec., Facilitation & Operations of the H. Comm.
on Homeland Sec., 116th Cong. 126 (2020) . . . . . . .  17

vii
Cited Authorities
Page
Ex a minin g th e Hum an Ri gh t s & Le ga l
Implications of DHS’s “Remain in Mexico”
Policy: Hearing Before the Subcomm. on Border
Sec., Facilitation & Operations of the H. Comm.
on Homeland Sec., 116th Cong. 140 (2020)  . . . . . . . 23
Ex a minin g th e Hum an Ri gh t s & Le ga l
Implications of DHS’s “Remain in Mexico”
Policy: Hearing Before the Subcomm. on Border
Sec., Facilitation & Operations of the H. Comm.
on Homeland Sec., 116th Cong. 149 (2020)  . . . . . . .  17
Human Rights First, A Sordid Scheme: The
Trump Administration’s Illegal Return of
Asylum Seekers to Mexico (2019) . . . . . . . . . . . . . . . 16
Human Rights Watch, “Like I’m Drowning”:
Children and Families Sent to Harm by the US
“Remain in Mexico” Program (2021) . . .  14, 15, 16, 17
International Covenant on Civil and Political
Right s (ICCPR) a r t . 7, Dec. 16 , 19 6 6 ,
999 U.N.T.S. 171  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Jack P. Shonkoff, et al., The Lifelong Effects
of Early Childhood Adversity and Toxic
Stress, 129 Pediatrics e232 (2012) . . . . . . . . . . . . . . . 31
Jo d i A . Q u a s & T ho m a s D. Lyon ,
Questioning Unaccompanied Immigrant
Children, Society for Research in Child
Development (Oct. 2019) . . . . . . . . . . . . . . . . . 10, 24, 29

viii
Cited Authorities
Page
Julie M. Linton, et al., Providing Care for
C h i l d r e n i n Im m i g r a n t Fa m i l i e s ,
Pediatrics: Official Journal of the American
Academy of Pediatrics (Sept. 2019) . . . . . . . . . . .30, 31
Kelly L. Edyburn & Shantel Meek, Seeking Safety
and Humanity in the Harshest Immigration
Climate in a Generation: A Review of the
Literature on the Effects of Separation and
Detention on Migrant and Asylum-Seeking
Children and Families in the United States
During the Trump Administration, Social
Policy Report (forthcoming 2021) . . . . . . . . . . . . . . . 14
Kids in Need of Defense, Forced Apart: How
the “Remain in Mexico” Policy Places
Children in Danger and Separates Families
(Feb. 24, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Kristina Cooke et al., Exclusive: U.S. Migrant
Policy Sen d s Th o u san d s of Chil dren ,
Including Babies, Back to Mexico, Reuters,
Oct. 11, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Lisa Aronson Fontes, Interviewing Immigrant
Children for Suspected Child Maltreatment,
J. of Psychiatry & L. 294 (2010)  . . . . . . . . . . . . . . . . 24
Lucy Bassett, et al., Living in a Tent Camp
o n t h e US /Me x i c o B o r d e r ( Un i v. o f
Va. Batten Global Pol’y Ctr., Apr. 27, 2020) . . . .  14, 15

ix
Cited Authorities
Page
New Data on Unaccompanied Children in
Immigration Court, Transactional Records
Access Clearinghouse at Syracuse Univ.
(Nov. 25, 2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Nomaan Merchant, Tents, Stench , Smoke:
Health Risks Are Gripping Migrant Camp,
Associated Press, Nov. 14, 2019  . . . . . . . . . . . . . . . . 13
Ol iver Laugh l a nd , In s i d e Tr ump’s Te n t
Immigration Co ur ts That Tur n Away
Thousands of Asylum Seekers, The Guardian,
Jan. 16, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Oversight of the Customs and Border Protection’s
Response to the Smuggling of Persons at the
Southern Border: Hearing Before the Senate
Comm. on the Judiciary, 116th Cong. (2019)  . . . . . 30
Policy Memorandum, USCIS, PM-602-0169,
Guidance for Implementing Section 235(b)(2)
(C) of the Immigration and Nationality Act and
the Migrant Protection Protocols (Jan. 28, 2019) . . 16
Protocol Relating to the Status of Refugees
a r t . I, Ja n. 31, 19 67, 19 U. S .T. 6 2 2 3 ,
606 U.N.T.S. 267 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Sara B. Johnson et al., Adolescent Maturity and the
Brain: The Promise and Pitfalls of Neuroscience
Research in Adolescent Health Policy, in 45
Journal of Adolescent Health 216 (2009) . . . . . . . . . . 9

x
Cited Authorities
Page
Stephanie Leutert, et al., Migrant Protection
Protocols: Implementation and Consequences
for Asylum Seekers in Mexico 32 (U. Tex.
Austin Strauss Ctr. for Int’l Sec. & Law,
No. 218, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14, 21
Subcomm. on Best Interests, Interagency Working
Grp. on Unaccompanied and Separated
Children, Framework for Considering the Best
Interests of Unaccompanied Children (2016) . . . . . . 8
U.N. Comm. on the Rts. of the Child, General
Com ment No. 6 (2 0 0 5 ): T r e at ment of
Unaccompanied and Separated Children
Outside Thei r Countr y of Or ig in,
CRC/GC/2005/6 (Sept. 1, 2005)  . . . . . . . . . . . . . . . . . 8
U.N. High Comm’r for Refugees, Children on
the Run: Unaccompanied Children Leaving
Central America and Mexico and the Need for
International Protection (Mar. 13, 2014)  . . . . . . . . 10
U.N. High Comm’r for Refugees, UNHCR
Guidelines on Determining the Best Interest
of the Child (Nov. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . 8
U.S. Citizenship & Immigr. Serv., U.S. Dep’t of
Homeland Sec., RAIO Combined Training
Program: Children’s Claims § 2.4.2 (2019) . . . . . . . 11
U.S. Customs & Border Prot., MPP Guiding
Principles (2019)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

xi
Cited Authorities
Page
U. S. Dep’t of State, Mex ico 2 018 Human
Rights Report (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 15
UNGA, Exec. Comm. of the High Comm’r’s
Programme, Note on International Protection,
U.N. Doc. A/AC.96/951 (Sept. 13, 2001) . . . . . . . . . . . 8
Vidanka Vasilevski & A lan Tucker, WideRanging Cognitive Deficits in Adolescents
Following Early Life Maltreatment, 30
Neuropsychology 239 (2016)  . . . . . . . . . . . . . . . . . . . 30
Young Center, Immigration Hear ings by
Vi d e o: A T h r e a t t o C hi l d r e n’s Ri gh t
to Fair Proceedings (Jan. 2020)  . . . . . . . . . . . . . . . . 23
You ng Cent er, Th e “Mi gr ant Pr ot ec ti o n
Protocols” Are Harming Children and Must
End (Nov. 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

1
INTEREST OF AMICI CURIAE1
Amici serve immigrant children and their families
who are and have been subjected to the so-called Migrant
Protection Protocols (“MPP”). Amici, who provide legal
and social services to these children and their families
experiencing trauma while living in dangerous conditions
in Mexico under MPP, are well-suited to assist the
Court in understanding the policy’s impact on asylumseeking 2 children through their personal stories. Amici
have directly interacted with the children whose stories
are highlighted in this brief. The children’s stories will
illustrate that MPP fails to meet the United States’ legal
obligations to afford asylum-seeking children with critical,
child-specific protections and procedures.
Young Center for Immigrant Children’s Rights
is a federally appointed independent Child Advocate for
unaccompanied and separated immigrant children in eight
locations in the U.S., and advocates with federal agencies
to consider children’s best interests in every decision.
Kids in Need of Defense is a national nonprofit
org a n i zat ion ded ic at ed t o prov id i ng f ree leg a l
1. Pursuant to Supreme Court Rule 37.6, counsel for amici
state that no counsel for a party authored this brief in whole or
in part, and that no person other than amici, its members, or
its counsel made a monetary contribution to the preparation or
submission of this brief. The parties have provided written consent
for the filing of this brief.
2. Amici use “asylum-seekers” and “asylum-seeking children”
to refer to immigrant children seeking safety through various forms
of humanitarian relief, including but not limited to asylum, under
U.S. law.

2
representation and protection to immigrant and refugee
children in the U.S. who are unaccompanied by or
separated from a parent or legal guardian, and face
removal proceedings in immigration court.
Center for the Human Rights of Children at Loyola
University Chicago School of Law advances and protects
the rights of children with the belief that children’s
rights are human rights, and engages in interdisciplinary
scholarship and applied research to address critical issues
affecting the lives of children.
Angry Tias and Abuelas of the Rio Grande Valley
is a network of concerned women located at the TexasMexico border that provides basic necessities for health
and safety and support for human dignity and justice to
individuals and families seeking asylum at our borders.
Children’s Defense Fund is a national nonprofit child
advocacy organization that has worked relentlessly for
more than 40 years to ensure a level playing field for all
children and champions policies that lift children out of
poverty, protect them from abuse and neglect, and ensure
their access to health care, quality education, and a moral
and spiritual foundation.
First Focus on Children is a national bipartisan
children’s advocacy organization dedicated to making
children and families the priority in federal policy and
budget decisions, and advocates for immigration policies
that promote the health, safety, and well-being of children
and families.

3
Save the Children Federation, Inc., in the U.S. and
around the world, gives children a healthy start in life, the
opportunity to learn and protection from harm.
Save the Children Action Network, founded in 2014
as the political advocacy arm of Save the Children, is
building bipartisan support to make sure every child has
a strong start in life.
SUMMARY OF ARGUMENT
The Migrant Protection Protocols (“MPP”), the
unlawful policy forcing asylum-seekers to remain in
Mexico while awaiting hearings on their claims for
immigration relief, specifically harm children whom
Congress has directed the Executive Branch to protect.
This brief illustrates these specific harms through the
stories of actual children subjected to MPP.
MPP forces nearly all asylum-seekers to remain in
Mexico to await their immigration hearings in violation
of federal law and international treaties that prohibit the
return of asylum-seekers to countries where they face
danger, persecution, threats, or harm. MPP uniquely
affects children by failing to consider children’s best
interests or provide the necessary procedural safeguards
to ensure their safety and due process during the pendency
of their immigration proceedings. The consequences are
devastating.
Until MPP, the United States had for decades
implemented basic procedural safeguards to avoid
returning asylum-seekers to danger before or while
their protection claims were decided. Children and their

4
families who were apprehended seeking protection in the
U.S. were generally processed for expedited removal and
given credible-fear interviews with asylum officers. After
receiving a positive credible-fear determination, they were
placed in full removal proceedings and either placed in
family detention or permitted to reside in the interior
of the U.S. while resolving their immigration cases. In
many cases, pro bono legal service providers and lawyers
offered children and families in family detention basic
information about the immigration process. These trained
pro bono service providers and lawyers often recognized
when a child had an independent claim for immigration
relief, including a distinct asylum claim.
MPP turns the system on its head: it effectively
prevents immigration officers from hearing the credible
fears of asylum-seeking children and their families before
sending these asylum-seekers—who already fled danger
in their home countries—to dangerous conditions in
Mexico to await their immigration proceedings without
meaningful access to counsel. Under MPP, asylum-seekers
must affirmatively assert their fears of persecution in
Mexico. But asylum-seeking children and their families
often do not know they can (and should) volunteer such
concerns. Those who affirmatively tell a border agent that
they fear persecution in Mexico may be referred for a nonrefoulement assessment by an asylum officer. However, the
few asylum-seekers who receive such assessments are not
provided with language-appropriate information, access
to counsel, or a chance to appeal a negative refoulement
assessment determination before they are hurried back
across the border.

5
Worse yet, back in Mexico, many children and their
families live in dangerous, unsanitary, and inhumane
encampments along the border. They have frequently
lacked access to running water, electricity, food, and basic
medical care. Children and their families witness, fear,
and often fall victim to brutal violence, kidnapping, and
cartel warfare.
When children ultimately attend their MPP hearings,
the vast majority lack counsel—and the “tent courts”
along the border are not safe or confidential spaces
to disclose harm. No one informs children about their
statutory right to file an asylum application separately
from their parent or guardian based on their unique
claims. The hearing procedures also fail to account
for the unique needs and vulnerabilities that children,
especially traumatized ones, face navigating complex legal
proceedings. During MPP hearings, immigration judges
do not consider children’s distinct asylum claims, and
rarely ask children to testify. MPP’s lack of procedural
safeguards for children contravenes the basic standards
of due process that Congress adopted by incorporating
the principle of non-refoulement into federal law.
MPP is traumatic for children and further compounds
the physical and psychological trauma that many already
experienced in their countries-of-origin. This trauma
has long-term consequences on their brain development,
health, educational outcomes, and psychological wellbeing.
This brief provides these and other vivid illustrations
of MPP’s harmful impact on children:

6
• Ana fled her sexually abusive father and threats
to her life after she reported him to the police in
Honduras. 3 Because of MPP, 16-year-old Ana was
expected to volunteer her story in a tent court,
where she had no privacy and no attorney to advise
her about what information would be relevant.
• Six-year-old Oscar and his father were forced to
separate from his mother and younger brother
at the border, because U.S. Customs and Border
Patrol (“CBP”) arbitrarily decided to permit his
mother and brother to enter, but to return Oscar
and his father to Mexico. While in Mexico, Oscar’s
father was kidnapped and held ransom by a cartel.
• Five-year-old Juan fled violence in Honduras with
his mother, a human-trafficking survivor. While
subjected to MPP, Juan became severely ill and
narrowly escaped an attempted kidnapping that
left a scar on his face.
• Erick, a teenager, fled Honduras after years of
abuse and sexual-orientation discrimination. He
attended multiple MPP hearings, but he was afraid
to discuss his sexuality in open tent hearings and
in front of his mother.
• Sisters Alejandra and Rosa, ages 9 and 11, were
unable to present their own distinct asylum claims
during MPP proceedings with their abusive father.
In three hearings, the girls were only allowed to
say their names and ages, at which point the judge
3. Amici use pseudonyms for the minor children in this brief.

7
told them that their father would speak for them,
denying the girls a fair opportunity to present
their personal claims.
• Seventeen-year-old Mateo fled El Salvador with
his family after gang members killed his older
brothers and attacked him. While living in an
encampment under MPP, Mateo learned that
gangs were threatening to steal children. His
family struggled to find food, water, and clothes;
Mateo became ill after bathing in the river.
It is unreasonable to expect children to seek asylum,
much less meet the evidentiary burdens needed to win
asylum, while subjected to these conditions. To end the
inhumane treatment of migrant children and prevent
further violations of international and U.S. law, the Court
should affirm the decision of the Ninth Circuit.
ARGUMENT
I.

ASY LU M- SEEK ING CHILDREN CA N NOT
BE H E A R D W I T HOU T PRO C EDU R A L
S A F EGUA R D S A N D C H I L D - SEN SI T I V E
CONSIDERATIONS

The United States has long been committed to
protecting asylum-seeking children. It codified this
commitment in its prohibition against sending asylumseekers to a country where they would likely face
persecution based on protected grounds, torture, or other
specified harms—the principle of non-refoulement.4 As a
4. See 8 U.S.C. § 1231(b)(3). In addition, the non-refoulement
obligation is set forth in treaties ratified by the U.S. See, e.g., Protocol

8
signatory to the United Nations Convention on the Rights
of the Child, the U.S. agreed to be part of a global effort
to advance the “best interests” of children, and to afford
children appropriate protections from child-specific
forms of persecution and other harms. 5 To meet these
obligations, asylum laws, policies, and procedures must
take into account each child’s safety, expressed wishes,
right to family integrity, liberty, developmental needs,
and identity.6 Where a child faces serious risks elsewhere,
asylum is often the best guarantee of the child’s safety
and well-being.7
Relating to the Status of Refugees art. I, Jan. 31, 1967, 19 U.S.T.
6223, 606 U.N.T.S. 267; Convention against Torture art. 3, Dec. 10,
1984, 1465 U.N.T.S. 85 (entered into force June 26, 1987; ratified
by United States Oct. 21, 1994); International Covenant on Civil
and Political Rights (ICCPR) art. 7, Dec. 16, 1966, 999 U.N.T.S. 171
(entered into force Mar. 23, 1976; ratified by United States June 8,
1992); UNGA, Exec. Comm. of the High Comm’r’s Programme, Note
on International Protection, U.N. Doc. A/AC.96/951, ¶ 16 (Sept. 13,
2001).

5. See Convention on the Rights of the Child, Nov. 20, 1989,
1577 U.N.T.S. 3; see also U.N. Comm. on the Rts. of the Child,
General Comment No. 6 (2005): Treatment of Unaccompanied and
Separated Children Outside Their Country of Origin, ¶ 74, CRC/
GC/2005/6 (Sept. 1, 2005).
6. See Subcomm. on Best Interests, Interagency Working
Grp. on Unaccompanied and Separated Children, Framework for
Considering the Best Interests of Unaccompanied Children 4-5
(2016), https://www.law.georgetown.edu/human-rights-institute/
wp-content/uploads/sites/7/2017/07/Best-Interests-Framework.
pdf.
7. See U.N. High Comm’r for Refugees, UNHCR Guidelines
on Determining the Best Interest of the Child 102 (Nov. 2018),
https://www.refworld.org/docid/5c18d7254.html.

9
Congress has recognized that children’s unique
needs and vulnerabilities warrant heightened procedural
protections to ensure that they have a fair opportunity
to be heard on their protection claims. 8 Children are
developmentally distinct from adults because children’s
brains continue to develop well into their twenties. 9
According to the Department of Justice (“DOJ”), a
child’s perception, memory, recall, and other capacities
develop with age, yet even older children vary in cognitive
abilities.10 Cultural and linguistic differences may further
hinder communication and comprehension as a child is
interviewed.11
Moreover, a child’s ability to establish eligibility for
asylum and other relief often depends on individual and
institutional actors beyond children’s control. Because
children are neither financially nor emotionally selfsufficient, they depend on adults to facilitate their
participation in a legal system designed for adults.12
8. See Trafficking Victims Protection Reauthorization Act
(“TVPRA”), 8 U.S.C. § 1232 (2008).
9. Sara B. Johnson et al., Adolescent Maturity and the
Brain: The Promise and Pitfalls of Neuroscience Research in
Adolescent Health Policy, in 45 Journal of Adolescent Health 216
(2009), https://www.ncbi.nlm.nih.gov/pmc/articles/PMC2892678/.
10. Chris Newlin et al., Child Forensic Interviewing: Best
Practices, Juvenile Justice Bulletin (Office of Juvenile Justice and
Delinquency Prevention, U.S. Dep’t of Justice, Washington, D.C.),
Sept. 2015, at 3-4, https://ojjdp.ojp.gov/sites/g/files/xyckuh176/
files/pubs/248749.pdf (“Child Forensic Interviewing”).
11. Id. at 4.
12. See E.A.C.A. v. Rosen, No. 20-3216, 2021 WL 97447, at
*9-10 (6th Cir. Jan. 12, 2021).

10
Children must depend on parental support and scarce
resources for legal, medical, and educational services.
Furthermore, trauma history may exacerbate the
gap that a child must bridge to participate in immigration
proceedings. Many children seeking immigration relief
have suffered trafficking, abuse, or other violence. In
particular, child migration from Central America has
been conclusively connected to gang violence, the erosion
of human rights, violence in the home, and other grave
danger and serious harm in their countries-of-origin.13
DOJ guidance notes that a trauma history may “interfere
with a child’s ability or willingness to report information
about violent incidents.”14 Children who have experienced
trauma may have piecemeal or nonlinear memories of
the harm they suffered, making it time-consuming to
develop and corroborate their claims.15 Because many
asylum-seeking children have suffered immense trauma,
it may be difficult for them to discuss private and painful
experiences in a formal adversarial proceeding without
privacy or any child-sensitive interviewing procedures,
as is the case in MPP.16 For many children, the asylum
13. U.N. High Comm’r for Refugees, Children on the Run:
Unaccompanied Children Leaving Central America and Mexico
and the Need for International Protection 9-11 (Mar. 13, 2014),
https://www.unhcr.org/en-us/about-us/background/56fc266f4/
children-on-the-run-full-report.html.
14. Child Forensic Interviewing at 5.
15. Id.
16. See Jodi A. Quas & Thomas D. Lyon, Questioning
Unaccompanied Immigrant Children, Society for Research in
Child Development (Oct. 2019), https://www.srcd.org/research/
questioning-unaccompanied-immig rant-children-lessonsdevelopmental-science-forensic (“Questioning Unaccompanied
Immigrant Children”).

11
process is the first time they discuss their experiences, and
it requires procedures and an environment that account
for their age, development, and trauma history.
Courts have long recognized the unique needs of
children and the need to account for them to allow
children’s meaningful participation in immigration
proceedings.17 And U.S. Citizenship and Immigration
Services (“USCIS”) trains asylum officers that “children’s
needs are different from adults due to their developmental
needs, their dependence, including in legal matters, and
their vulnerability to harm” and provides child-specific
interviewing procedures.18
MPP, however, is a dangerous departure from
this long-standing legal recognition of asylum-seeking
children’s vulnerabilities and needs. As discussed below,
MPP’s procedural shortcuts and indifference to children’s
unique needs deny them the opportunity to meaningfully
seek asylum.
II. M P P V I O L A T E S N O N - R E F O U L E M E N T
PRINCIPLES BY DENYING CHILDREN DUE
PROCESS
MPP deprives asylum-seeking children of basic
procedural safeguards and due process in contravention of
17. See, e.g., Mejilla-Romero v. Holder, 614 F.3d 572,
573 (1st Cir. 2010); A-D-, AXXX XXX 526 (BIA May 22, 2017)
(unpublished).
18. U.S. Citizenship & Immigr. Serv., U.S. Dep’t of Homeland
Sec., RAIO Combined Training Program: Children’s Claims
§ 2.4.2 (2019), https://www.uscis.gov/sites/default/files/document/
foia/Childrens_Claims_LP_RAIO.pdf.

12
the Nation’s obligation to protect asylum-seekers against
refoulement.19 First, MPP prevents children from being
heard on their fear of harm in Mexico, resulting in them
being sent to danger and persecution there. Next, removal
proceedings under MPP fail to provide child-sensitive
considerations and procedures to ensure that children
have a fair opportunity to tell their stories and seek
immigration relief. Many children are forced to participate
in tent hearings without counsel, and under intimidating
and often adversarial conditions that are not conducive to
volunteering intensely personal information. Immigration
judges rarely ask children questions regarding their
claims, and children are not informed about their right
to pursue independent claims for asylum and other relief.
The procedural failures put asylum-seeking children at a
severe disadvantage and prevent them from sharing their
own unique experiences.
A.

MPP Denies Children Their Right To Be Heard
on Their Fears of Returning To Danger in
Mexico

At MPP’s initial “screening” stage, CBP fast-tracks
asylum-seekers into MPP unless they affirmatively
volunteer their fears of returning to Mexico. 20 If an
asylum-seeker affirmatively expresses such fear, the
19. Cf. 8 U.S.C. § 1231; Foreign A ffairs Reform and
Restructuring Act of 1998, § 2242(a), Pub. L. No. 105-277, Div.
G., Title XXI, 112 Stat. 2681 (codified as note to 8 U.S.C. § 1231).
20. See U.S. Customs & Border Prot., MPP Guiding
Principles (2019) at 1, https://www.cbp.gov/sites/default/files/
assets/documents/2019-Jan/MPP%20Guiding%20Principles%20
1-28-19.pdf.

13
Department of Homeland Security (“DHS”) policy
requires that CBP refer the asylum-seeker for a nonrefoulement assessment to determine whether it is more
likely than not that they will face persecution or torture
in Mexico. 21 If the asylum-seeker receives a negative
determination, they are placed in MPP. 22 CBP does not
consider the fear of return to an asylum-seeker’s countryof-origin that serves as the underlying basis for an asylum
claim. These procedures are inadequate to ensure that
asylum-seeking children have an opportunity to be heard
on their fears of returning to Mexico.
i.

Children in MPP Face Dangerous and
Inhumane Conditions in Mexico

More than 16,000 children, including nearly 500
infants, have been sent back to dangerous, inhumane,
and unsanitary conditions in Mexico under MPP. 23 Many
children in MPP live in makeshift tent encampments,
where the air smells of feces and is thick with smoke
from near-constant fires. 24 Children and families have
been crowded in these camps with no or limited access
21. Id. at 1-2.
22. Id. at 2.
23. See Kristina Cooke et al., Exclusive: U.S. Migrant Policy
Sends Thousands of Children, Including Babies, Back to Mexico,
Reuters, Oct. 11, 2019, https://www.reuters.com/article/us-usaimmigration-babies-exclusive-idUSKBN1WQ1H1.
24. See Nomaan Merchant, Tents, Stench, Smoke: Health
Risks Are Gripping Migrant Camp, Associated Press, Nov. 14,
2019, https://apnews.com/article/337b139ed4fa4d208b93d491364
e04da.

14
to running water, electricity, food, medical care, or other
necessities. Humanitarian organizations on the ground
have provided food, medical care, and other services in
the camps; nonetheless, some children go to bed hungry. 25
The “crowded, unsanitary and often dangerous conditions
in tent encampments in Mexico are hazardous to child
health and family wellbeing.” 26
While in Mexico, many children in MPP witness and
fall victim to crime, violence, abuse, and family separation.
Criminal groups often target asylum-seekers along the
border because asylum-seekers, who have no protective
community ties in Mexico, may have networks of families
and friends in the U.S. who can pay their ransoms. 27 In
25. See, e.g., Human Rights Watch, “Like I’m Drowning”:
Children and Families Sent to Harm by the US “Remain in
Mexico” Program 70 (2021), https://www.hrw.org/sites/default/
files/media_2021/01/mexico0121_web.pdf (“Like I’m Drowning”);
Lucy Bassett, et al., Living in a Tent Camp on the US/Mexico
Border 5-6, 13 (Univ. of Va. Batten Global Pol’y Ctr., Apr. 27, 2020),
https://gpc.batten.virginia.edu/our-work/publications/livingtent-camp-usmexico-border-experience-women-and-childrenmatamoros (“Living in a Tent Camp”).
26. Kelly L. Edyburn & Shantel Meek, Seeking Safety and
Humanity in the Harshest Immigration Climate in a Generation:
A Review of the Literature on the Effects of Separation and
Detention on Migrant and Asylum-Seeking Children and
Families in the United States During the Trump Administration,
Social Policy Report, at 43 (forthcoming 2021).
27. See Stephanie Leutert, et al., Migrant Protection
Protocols: Implementation and Consequences for Asylum Seekers
in Mexico 32 (U. Tex. Austin Strauss Ctr. for Int’l Sec. & Law, No.
218, 2020), https://repositories.lib.utexas.edu/handle/2152/81991
(“Migrant Protection Protocols”).

15
other instances, criminal groups and other opportunistic
actors target asylum-seekers because of anti-immigrant
sentiment. 28 Because they are often fleeing gangs in
the Northern Triangle of Guatemala, El Salvador, and
Honduras, some children and their families are targeted
by those same gangs, which have a strong presence in
Mexico. 29
These dangers impact the daily lives of children while
they await adjudication of their asylum claims. Out of fear,
migrant parents often do not send their children to schools
in the border cities. 30 That fear pervades even the most
routine tasks, such as charging their cellular phones at a
charge location within the encampment. Parents do not
even feel comfortable taking their children to restrooms
due to reports of sexual assault within the encampments
and fear of going to places in the border cities due to gang
and other criminal activity. 31
ii.

The MPP Process Returns Children To
Danger and Harm in Mexico

Under MPP, asylum-seekers must affirmatively assert
their fears of persecution in Mexico: It is DHS policy to
not even ask.32 Yet, children and their families often arrive
28. See, e.g., id. at 33; Like I’m Drowning at 26.
29. See U.S. Dep’t of State, Mexico 2018 Human Rights
Report at 19 (2018); see also Like I’m Drowning at 26.
30. See Living in a Tent Camp at 23.
31. See id. at 19-20, 25.
32. Pet. App. 28a.

16
at the border scared and unfamiliar with MPP and the
complicated asylum system and do not know that they can
(and should) volunteer such concerns while they are being
processed by border patrol officers. It is unreasonable
to place the burden on asylum-seekers, particularly
children, to volunteer painful information regarding their
fears of violence and persecution in Mexico. Moreover,
some asylum-seekers do not receive non-refoulement
assessments even when requested. 33
Even if asylum-seekers are able to receive a nonrefoulement assessment, they are not given adequate time
to prepare for their interviews, and may not know that
they should express their fears of returning to Mexico,
even though they are required to meet a heavy burden. 34
Many times, they lack language-appropriate information
that explains the purpose of the interview. 35 Asylumseekers are expected to participate in this process after
they have been traveling, sometimes for months, to arrive
at a point of entry. 36 Reports from the field show that
33. Like I’m Drowning at 47.
34. Cf. Policy Memorandum, USCIS, PM-602-0169, Guidance
for Implementing Section 235(b)(2)(C) of the Immigration and
Nationality Act and the Migrant Protection Protocols, at 3 (Jan.
28, 2019), https://www.uscis.gov/sites/default/files/document/
memos/2019-01-28-Guidance-for-Implementing-Section-35-b-2C-INA.pdf.
35. Examining the Human Rights & Legal Implications of
DHS’s “Remain in Mexico” Policy: Hearing Before the Subcomm.
on Border Sec., Facilitation & Operations of the H. Comm. on
Homeland Sec., 116th Cong. 100 (2020) (statement of Columban
Center for Advocacy & Outreach).
36. See Human Rights First, A Sordid Scheme: The Trump
Administration’s Illegal Return of Asylum Seekers to Mexico 11

17
some non-refoulement interviews were conducted over
the telephone, and at times in the middle of the night or
early in the morning. 37 Contrary to government policy,
some asylum-seekers have been denied the opportunity
to have their non-refoulement assessments conducted by
asylum officers trained on conducting asylum interviews.38
Moreover, asylum-seekers have no way to appeal negative
refoulement assessment determinations. 39
As a result of these inadequacies at the nonrefoulement assessment stage, and as the following stories
show, MPP returns many children to extreme danger and
violence in Mexico.

(2019), https://www.humanrightsfirst.org/sites/default/files/A_
Sordid_Scheme.pdf; cf. Examining the Human Rights & Legal
Implications of DHS’s “Remain in Mexico” Policy: Hearing
Before the Subcomm. on Border Sec., Facilitation & Operations
of the H. Comm. on Homeland Sec., 116th Cong. 126 (2020)
(statement of the International Refugee Assistance Project).
37. Like I’m Drowning at 48.
38. See Debbie Nathan, An Asylum Officer Speaks Out
Against the Trump Administration’s “Supervillain” Attacks on
Immigrants, The Intercept, Sept. 13, 2019, https://theintercept.
com/2019/09/13/asylum-interview-immigration-trump/.
39. Examining the Human Rights & Legal Implications of
DHS’s “Remain in Mexico” Policy: Hearing Before the Subcomm.
on Border Sec., Facilitation & Operations of the H. Comm. on
Homeland Sec., 116th Cong. 149 (2020) (statement of Douglas
Stephens, Esq., Government Accountability Project).

18
a.

Jorge—Child Fleeing Violent Gangs
Subjected to MPP With His Mother
Even Though They Were Kidnapped
in Mexico on Their Way to the Border

For instance, Jorge, a four-year-old boy, lived with
his mother and grandparents in El Salvador, where
violent gangs often sought to control Salvadoran police
officers by attacking their families. Because Jorge’s close
relatives are members of the Salvadoran police force, gang
members forcibly entered the family’s home and killed
Jorge’s grandmother. His grandfather fled the country,
and gang members threatened Jorge’s uncle and mother.
In August 2019, Jorge and his mother fled to the U.S.
Along their journey to the border, Jorge and his
mother were kidnapped by gang members in Mexico.
The gang hid them in a stash house with other hostages,
threatening to kill them if their family refused to pay their
ransom. Jorge’s father, who has lived in the U.S. since
Jorge’s birth, paid the ransom. As Jorge and his mother
were being released from the stash house, a different
gang arrived and started firing gunshots. Jorge’s mother
covered him with her body, she prayed for the bullets
to pass over them, and they eventually fled the scene.
Following these events, Jorge and his mother sought
protection in the U.S.
Upon arrival, border officials briefly processed them,
gave them a court date, and sent them back to Matamoros
under MPP. The border officials ignored Jorge’s mother
when she told them about the kidnapping in Mexico and the
gang violence in El Salvador. Forced to return to Mexico,
Jorge and his mother lived in a temporary tent at times, and
sometimes they slept on bedding in the street. One night

19
when they went to the bathroom, a group of men kidnapped
them. The men took them away in a vehicle. Jorge witnessed
the men rape his mother before the men left them in Reynosa,
more than fifty miles away. Jorge’s mother managed to find
local police, and she was sent to a hospital. Eventually, Jorge
and his mother made it to a shelter.
In November 2019, Jorge and his mother attended an
immigration hearing, where their attorney advocated for
their protection in the U.S. based on their experiences in
Mexico and El Salvador. They underwent a non-refoulement
assessment, but received a negative determination and
were again sent back to Mexico. Jorge showed signs of
trauma, such as fighting and other unusual behavior. His
mother suffered from depression, nightmares, and suicidal
thoughts. She sought help from a therapist. After gang
members entered their shelter in December 2019, Jorge
stopped eating, and his mother stayed in bed. Jorge and
his mother eventually relocated to a small apartment.
Later, Jorge became ill with an infection that caused his
fingernails to fall out, and then a tooth infection. Jorge
and his mother remain in Mexico because of MPP.
b.

Juan—Child Fleeing Violence Who
Became Ill from the Conditions in the
Camp and Was Kidnapped for Months

Juan, a five-year-old Honduran boy who became
sick and, along with his mother, was kidnapped in the
Matamoros encampment, provides another example of the
danger of being forced to wait in Mexico. Juan’s mother
was sold to and raped by a human trafficker as a child. She
escaped after four years, and gave birth to Juan. He became
her joy, and her sole mission was to protect him from the
abuse and dehumanization that she experienced as a child.

20
In October 2019, they fled Honduras for the U.S.
after a man stalked and threatened to kill Juan’s mother.
After being sent to Matamoros under MPP, Juan and his
mother stayed in the encampment. The area, however, was
controlled by a Mexican cartel. One day near the camp’s
entrance, a group of men in a vehicle attempted to kidnap
Juan’s mother when she returned from a convenience store
with Juan. She quickly grabbed Juan, and they fell to the
ground. Juan injured his cheek during the fall, leaving a
scar on his face. Following these events, his mother was
afraid to leave the camp for any reason.
Juan became ill due to the weather conditions in
Matamoros, where he endured very hot temperatures
during the day and cold temperatures at night. Juan lost
his appetite. Although his mother searched for medical
assistance, she could not find the medical attention
that Juan needed. At one point they were kidnapped
for two months. They were released, but Juan’s mother
felt trapped in the camp because she was petrified that
cartel members would attempt to kidnap her again if she
ventured from her tent. With no other option to save her
son, she separated from Juan, as he sought protection
alone from border officials. But for Juan, the trauma did
not end; after their separation, he constantly cried, called
for his mother to return, and wet the bed at night.
B. MPP Denies Children Their Right To Be
Heard on Their Fears of Returning to Their
Countries-of-Origin
Once in MPP, asylum-seekers are forced to wait in
Mexico for months to attend removal proceedings held in

21
tents just across the U.S. border.40 While asylum-seekers
are asked to provide a written account of the basis for
their claim in their asylum application, a tent-court
hearing is the first opportunity for many asylum-seekers
to meaningfully articulate their fears of returning to
their countries-of-origin.41 Ignoring the realities of the
unique needs and vulnerabilities of children, these tent
hearings place children in circumstances that make it
nearly impossible to tell their stories.
For starters, the morning hearings in the U.S.
typically begin at 9 a.m.; however, asylum-seeking
children and their families are often required to arrive at
the international bridge between 3 and 4 a.m.42 This means
that these children must leave their tents in the dark to
walk and wait on the Mexican side of the border—the same
places where asylum-seekers become victims of robbery,
sexual assault, kidnapping, extortion, and other crimes.43
Because of these dangers, many asylum-seekers never
make it to their hearings.44 Children and their families
who fail to attend their hearings face termination of their
cases and orders of removal in absentia.45
40. See Migrant Protection Protocols at 18-21.
41. See id. at 20-21.
42. See id. at 20; see also Like I’m Drowning at 26.
43. See Migrant Protection Protocols at 33-35.
44. See Contrasting Experiences: MPP vs. Non-MPP
Immigration Court Cases, Transactional Records Access
Clearinghouse at Syracuse Univ. (Dec. 19, 2019), https://trac.syr.
edu/immigration/reports/587/.
45. Migrant Protection Protocols at 21.

22
i.

The Video-Based, Adversarial, and NonPrivate Conditions of MPP Hearings
Prevent Children from Understanding
the Proceedings and Presenting Their
Protection Claims

T he t ent he a r i ng s a re conduc t ed v i a v ideo
teleconferencing (“VTC”), making it very difficult for
children to understand what is occurring during their
hearings.46 The immigration judge, government lawyer,
and interpreter are located in a courtroom sometimes
hundreds of miles away from the tent where the asylumseekers are.47 The immigration judge appears on a video
screen.48 The interpreter sits next to the judge.49 Asylumseekers can hear the government lawyer’s voice, but they
cannot see the lawyer’s face. 50 Children must listen to the
interpreter and try to understand what is being said and
who is speaking. At the same time, it is difficult to hear and
understand interpreters.51 The tent hearings are rife with
46. Oliver Laughland, Inside Trump’s Tent Immigration
Courts That Turn Away Thousands of Asylum Seekers, The
Guardian, Jan. 16, 2020, https://w w w.theguardian.com/usnews/2020/jan/16/us-immigration-tent-court-trump-mexico.
47. Alicia A. Caldwell, Tent Court on the Border: Migrants
Face a Judge on a Screen and a Lawyer They Can’t See, Wall. St.
J., Jan. 9, 2020, https://www.wsj.com/articles/tent-court-on-theborder-migrants-face-a-judge-on-a-screen-and-a-lawyer-theycant-see-11578565802.
48. Id.
49. Id.
50. Id.
51. Examining the Human Rights & Legal Implications of
DHS’s “Remain in Mexico” Policy: Hearing Before the Subcomm.

23
technical glitches and connectivity issues.52 Given their age
and lack of understanding of the legal process, children
are reluctant to speak up about these challenges. 53
Immigration judges rarely ask children any questions
during these hearings and, even if they do, the tent
courtrooms are inappropriate places for children to tell
their private stories. The hearings are adversarial; the
government lawyer argues for asylum-seekers to be sent
back to their countries-of-origin.54 Furthermore, the tent
hearings lack privacy. As an asylum-seeker explains the
reasons why she fears returning to her country-of-origin,
roughly twenty-five other asylum-seekers are in the
same room. 55 The hearings include parents, who may be
unaware of a child’s sexual orientation or other basis for
persecution, and the hearings can include individuals who
would share a child’s traumatic testimony with people in the
on Border Sec., Facilitation & Operations of the H. Comm. on
Homeland Sec., 116th Cong. 18, 23 (2020) (statement of Laura
Peña, American Bar Association).
52. Id. at 23.
53. Young Center, Immigration Hearings by Video: A Threat
to Children’s Right to Fair Proceedings (Jan. 2020).
54. Cf. A merican Immig ration Council, A Guide to
Children Ar r iving at the Border 8 (2 015), https://w w w.
americanimmigrationcouncil.org/sites/default/files/research/a_
guide_to_children_arriving_at_the_border_and_the_laws_and_
policies_governing_our_response.pdf.
55. See Examining the Human Rights & Legal Implications
of DHS’s “Remain in Mexico” Policy: Hearing Before the
Subcomm. on Border Sec., Facilitation & Operations of the H.
Comm. on Homeland Sec., 116th Cong. 140 (2020) (statement of
the National Immigrant Justice Center).

24
child’s country-of-origin. This environment falls far short
of the welcoming, supportive, and empathetic environment
that increases immigrant children’s responsiveness to
questions about their traumatic experiences. 56
Compounding the difficulties of safely arriving at
hearings and navigating a complex legal system with no
procedural protections, asylum-seekers in MPP rarely
have critical access to counsel largely because it is very
difficult to retain U.S. immigration counsel or pro bono
counsel in Mexico. 57 Children, due to their developmental
needs, dependence, and vulnerabilities, are severely
impacted by lack of access to counsel. 58
56. See, e.g., Questioning Unaccompanied Immigrant
Children; Lisa A ronson Fontes, Interviewing Immigrant
Children for Suspected Child Maltreatment, J. of Psychiatry &
L. 294 (2010); cf. Kids in Need of Defense, Forced Apart: How
the “Remain in Mexico” Policy Places Children in Danger and
Separates Families at 2-3 (Feb. 24, 2020).
57. As of November 2020, only 5,148 out of 69,333 asylumseekers in MPP had counsel. Details on MPP (Remain in
Mexico) Deportation Proceedings, Transactional Records Access
Clearinghouse at Syracuse Univ. (Nov. 2020), https://trac.syr.edu/
phptools/immigration/mpp/. Data show that legal representation
is the single most important factor influencing the outcome of a
migrant’s case. See New Data on Unaccompanied Children in
Immigration Court, Transactional Records Access Clearinghouse
at Syracuse Univ. (Nov. 25, 2014), https://trac.syr.edu/immigration/
reports/359/.
58. See In re Gault, 387 U.S. 1, 36 (1967) (“The juvenile
needs the assistance of counsel to cope with problems of law, to
make skilled inquiry into the facts, to insist upon regularity of
the proceedings, and to ascertain whether he has a defense and
to prepare and submit it. The child requires the guiding hand

25
ii.

MPP Fails To Ensure That Children
Are Able To Pursue Independent Asylum
Claims

MPP hearings also deny children the opportunity
to pursue and be heard on independent asylum claims.
By law, children may assert independent asylum claims,
separate and distinct from the claims of their parents
and guardians. 59 In MPP, however, border officials
and immigration judges generally fail to consider that
possibility, treating children solely as “derivative” riders
on a parent’s claim. As the stories below illustrate, judges
particularly fail to appreciate that children may have
separate claims for relief that involve sensitive information
that a child may be unable to disclose in the presence of
their parents or guardians. Consequently, judges fail to:
(i) inform children of their right to pursue independent
asylum claims; (ii) elicit testimony from children; (iii)
consider a child’s claim for asylum separately from their
parent’s or guardian’s claim; and (iv) recognize when a
child might have a basis for protection based on abuse or
neglect by a parent. Without access to counsel, children
and their families often do not know that they can pursue
independent asylum claims, much less articulate those
claims in their written asylum applications. As a result,
children who face persecution on separate protected
grounds are denied a fair opportunity to be heard.

of counsel at every step in the proceedings against him . . . .”)
(citation and internal quotation marks omitted), abrogated on
other grounds by Allen v. Illinois, 478 U.S. 364 (1986).
59. See 8 C.F.R. §§ 1208.3, 1208.13 (2020).

26
a.

Erick—Teenager Fleeing Physical
and Verbal Abuse Based on His
Sexual Orientation With No Privacy
To Describe Persecution in the Open
Tent Hearing

For example, at age sixteen, Erick f led to the
U.S. with his mother because he experienced abuse in
Honduras based on his sexual orientation. Erick realized
from a young age that he was different from the people
around him. He was effeminate and had a “different
sexual preference,” but feared coming out to his family
and peers because Honduran society does not tolerate
homosexuality. Erick was consistently abused, both
verbally and physically, because of his sexual orientation.
Eventually, Erick came to fear that, like others in his
small town, he would be killed for being gay. Erick’s
fear and depression became so severe that he attempted
suicide. Erick never told his mother that the reason for the
abuse was because he is gay. Erick and his mother sought
protection in the U.S. after the killing of her brother and
experiencing fear related to a fifteen-year-old family feud
in Honduras.
After arriving at the border, Erick and his mother
were denied safe entry into the U.S. and were thrown into
MPP. Over the course of several months, they attended
multiple hearings in a tent court. Erick did not understand
the asylum process, and he did not give any testimony
at the hearings, fearing speaking candidly about his
sexual orientation in front of his mother. The testimony
provided by Erick’s mother at the hearing was confusing
because she was nervous. Because Erick had not revealed
his sexuality to his mother, her testimony excluded his

27
persecution based on his sexual orientation. Although
the immigration judge found that her testimony was
credible, Erick and his mother were ultimately ordered
removed. They walked back across the bridge to Mexico.
Erick’s mother did not continue with the asylum process,
but Erick returned and presented himself at the border
alone because he knew there could be no safe return to
Honduras. Erick was placed in government custody. He
then filed a separate asylum application based on the
sexual orientation persecution, but immigration officials
removed him to Honduras based solely on the order
entered against him while he was in MPP. He continues to
pursue his asylum claim to escape the sexual orientation–
based violence he experiences in Honduras.
b.

Ana—Child Fleeing Sexual Assault
Who Felt Unsafe Telling Her Story
at Her MPP Hearing

Ana, a sixteen-year-old girl, fled Honduras with her
mother after Ana was raped by her father. Ana received
death threats from both her father and her uncle for
reporting the rape to law enforcement authorities. Ana
and her mother appeared at their MPP hearing without
counsel, and Ana’s mother presented both her own
case and her daughter’s case to the immigration judge.
Although the immigration judge gave Ana the opportunity
to speak, Ana was afraid to do so because the hearing
took place in a tent via VTC with no privacy for her to
share the details of her private, painful story in a childappropriate setting. Ana and her mother were ordered
removed, without Ana’s testimony. After they were sent
back across the border, Ana witnessed a group of men
attempting to kidnap her friend. Following these events,

28
Ana suffered from depression, anxiety, night terrors, and
poor sleep. She has been diagnosed with PTSD.
c.

Alejandra and Rosa—Sisters Fleeing
Gang Threats Forced To Appear at
Hearings With Their Abusive Father,
and Prevented from Telling Their
Stories of Abuse

Alejandra, a nine-year-old girl, and Rosa, an elevenyear-old girl, are sisters who were born in El Salvador.
When the girls were younger, their paternal grandfather
sexually abused them. They also experienced verbal and
physical abuse by their father. Because their father had
a successful taxicab business, MS-13 gang members
targeted the family for extortion and violence, including
death threats at gun point and the torching of one of
the family’s taxicabs. After the gang members alerted
the family that they knew every detail of the girls’
whereabouts, the family was afraid to let the girls go to
school unless they were guarded by their father. In fear
for their lives, their parents made the difficult decision to
flee El Salvador. The girls and their father arrived at the
border in September 2019; they were forced to return to
Matamoros after being placed in MPP.
In Matamoros, the girls’ father found a small room
to rent, but the girls were unable to attend school. The
girls were rarely allowed to leave the little room they
were living in out of fear that they would be harmed or
kidnapped. After waiting for four months, the girls and
their father attended three tent hearings. During the first
hearing, the girls only addressed the court to state their
names and ages, after which the immigration judge told

29
them that their father would speak for them. The girls
sat in the back of the courtroom and did not sit at the
respondents’ table. During the second hearing, the judge
did not speak directly to the sisters, not even to ask their
names. Their father managed to retain counsel, who filed
identical applications for protection for each member of
the family based on the gang threats. Without separate
counsel, the girls could not assert their separate bases for
protection arising from the domestic abuse.
Alejandra and Rosa were ultimately ordered removed
with their father, and they returned to Matamoros. One
day, their father left their apartment and never returned.
A family friend brought the two girls to the border alone,
where they crossed and were placed in government
custody. Eventually, their father resurfaced—he had been
assaulted, robbed, and left without a phone for a time.
While in government custody, the girls rarely spoke about
their father, and indicated that they were afraid of seeing
him again because he had been abusive.
III. M PP H A S DEVA S TAT I NG L ONG -T ER M
EFFECTS ON CHILDREN
The totality of the conditions under MPP—the
dangerous and inhumane conditions in Mexico, the hearing
process with inadequate procedural safeguards, and the
constant fear of being forced to return to danger in their
countries-of-origin—is traumatic for children, causing
long-term harm to their mental health. Many migrant
children have already suffered traumatic experiences
in their countries-of-origin, during their journeys to the
U.S., and from their interactions with authority figures.60
60. See Questioning Unaccompanied Immigrant Children.

30
MPP compounds this trauma, and fails to consider the
specific needs of traumatized children. Many migrant
“children have high levels of anxiety, depression, and
PTSD.”61 Research shows that exposure to trauma and
violence negatively impacts children’s brain development,
health, educational outcomes, and psychological wellbeing.62
MPP also subjects asylum-seeking children to the
trauma of separation or the possibility of separation from
their families, including when parents are kidnapped.63 In
some instances, parents with fears of returning to Mexico
and their countries-of-origin are separated from their
children based on arbitrary decisions by immigration
officials. Such separation causes children deep sadness and
stress, and often irreparable harm. A reliable, supportive
relationship with a parent or caregiver serves the vital role
of mitigating the dangers and harms of highly stressful
and traumatic experiences.64 Traumatized children may
61. Julie M. Linton, et al., Providing Care for Children in
Immigrant Families, Pediatrics: Official Journal of the American
Academy of Pediatrics (Sept. 2019) at 6, https://doi.org/10.1542/
peds.2019-2077 (“Providing Care for Children”).
62. See, e.g., id.; Vidanka Vasilevski & Alan Tucker, WideRanging Cognitive Deficits in Adolescents Following Early Life
Maltreatment, 30 Neuropsychology 239, 240 (2016).
63. See Providing Care for Children at 21, 23; see also
Young Center, The “Migrant Protection Protocols” Are
Harming Children and Must End 1 (Nov. 2019), https://www.
theyoungcenter.org/stories/2019/12/12/the-migrant-protectionprotocols-are-harming-children-and-must-end.
64. Oversight of the Customs and Border Protection’s
Response to the Smuggling of Persons at the Southern Border:

31
be at serious risk of “toxic stress or prolonged serious
stress in the absence of buffering relationships.”65 This
risk is alarming because “toxic stress in young children
can lead to . . . permanent changes in brain structure and
function” and other adverse health effects.66
A.

Mateo—Child Fleeing Gangs that Killed His
Brothers and Attacked Him Sent to Mexico
Where Gangs Threatened To Steal Children
in the Camp

Mateo, a budding teenage artist and avid soccer player,
is an animal lover who once nursed a bird back to health.
When he was ten years old, Mateo’s mother withdrew
him from school in El Salvador because gangs extorted
and recruited schoolchildren. Instead, he had to work
five days a week loading cement blocks onto construction
trucks from the early morning to the evening. As part
of a “campaign of terror,” gang members threatened
one of Mateo’s older brothers for publicly evangelizing
Christianity; the family regularly attended a Christian
church in their hometown. Gang members abducted and
killed Mateo’s two brothers in 2016 and 2019. Several
Hearing Before the Senate Comm. on the Judiciary, 116th
Cong. (2019) (testimony of Julie Linton, American Academy of
Pediatrics).
65. Providing Care for Children at 6.
66. Jack P. Shonkoff, et al., The Lifelong Effects of Early
Childhood Adversity and Toxic Stress, 129 Pediatrics e232, e236
(2012); cf. American Academy of Pediatrics, Early Childhood
Adversity, Toxic Stress, and the Role of the Pediatrician:
Translating Developmental Science into Lifelong Health, 129
Pediatrics e224, e225 (2012).

32
months before the gang members killed Mateo’s second
brother, a group of men came to their family’s house
looking for Mateo’s brother. When they did not find him,
they attacked and beat Mateo. Local authorities ignored
the family’s police report.
In July 2019, Mateo and his family fled the threats to
their lives from the gangs. After arriving at the border,
they were initially detained, and then sent to Matamoros
under MPP. While there, a gang threatened to steal
children in the encampment. Mateo’s family struggled
to find food, water, and clothes. Mateo and his younger
brother fell ill after bathing in a river, sending his brother
to the hospital and leaving Mateo with stomach problems.
Despite their situation, Mateo and his family attended
their immigration hearing in the U.S., appearing before
an immigration judge via VTC without counsel. Mateo’s
mother did not understand the interpreter, and the
immigration judge never asked Mateo a single question.
Mateo said that he felt nervous and afraid to discuss his
experiences in such an open setting. The judge denied
Mateo’s and his family’s asylum petitions in January 2020,
and they were sent back to Mexico.
Concerned for her children’s safety, Mateo’s mother
decided to separate from her children. Mateo and his
brother crossed the border without her, and they were
placed in government custody while their mother remained
in Mexico. They continue to seek asylum in the U.S.
Mateo cries whenever he discusses these traumatic
events, and he has persistent fears of returning to danger
in both Mexico and El Salvador. He has nightmares about

33
being abducted like his older brothers. According to a
licensed clinical social worker, Mateo has been “profoundly
impacted by the series of traumatic events where he had
no control,” and he suffers from PTSD.
B. Oscar—Child Fleeing Death Threats Separated
from His Family at the Border Based on CBP’s
Arbitrary Processing Decision
Oscar, a six-year-old Salvadoran boy, and his father
were separated from Oscar’s mother and younger
brother for nearly eight months based on a CBP agent’s
unsupervised and arbitrary decision to separate the
family. Oscar’s father served in the Salvadoran military
for three years before retiring to work for a private
company. Oscar’s mother, a homemaker, cared for Oscar
and his little brother. But their home was abruptly
damaged after a group of men forcibly entered it searching
for Oscar’s father. The men assaulted and threatened
Oscar’s father because of his military service, destroying
his military credentials. After fleeing El Salvador, the
family was separated at the border because a CBP agent
improperly told them that only one parent and one child
could enter into the U.S. He offered no explanation for his
arbitrary decision. Oscar and his father were returned
to Matamoros under MPP while his mother and brother
entered the U.S., despite the entire family arriving and
presenting themselves together. In Mexico, Oscar’s father
was kidnapped and held for ransom for several days by
Mexican cartel members.

34
CONCLUSION
The violence and significant trauma that asylumseeking children and their families faced in these stories
are not unique. Standing alone, each story belies the
very principles of human decency that the U.S. has long
committed to upholding. Taken together, these stories
clearly illustrate that MPP violates the U.S.’s commitment
to protecting asylum-seeking children. Sending children
into real danger in Mexico and subjecting them to serious
risk of refoulement to their countries-of-origin is clearly
not in their best interests. It is the opposite. The Court
should affirm the decision of the Ninth Circuit.
Respectfully submitted.
Jane Liu
Jennifer Nagda
Young Center for Immigrant
Children’s Rights
2245 South Michigan Avenue,
Suite 301
Chicago, Illinois 60616
Scott L. Shuchart
Kids in Need of Defense
1201 L Street, NW, Floor 2
Washington, D.C. 20005

Linda Dakin-Grimm
Counsel of Record
Mark Shinderman
Milbank LLP
2029 Century Park East,
33rd Floor
Los Angeles, California 90067
(424) 386-4404
ldakin-grimm@milbank.com

Will B. Denker
Gary A. Crosby II
Margherita A. Capolino
Milbank LLP
55 Hudson Yards
New York, New York 10001
Counsel for Amici Curiae
Dated: January 22, 2021

